No.

IN THE
SUPREME COURT OF THE UNITED STATES
LINKEDIN CORPORATION,
Applicant,
v.
HIQ LABS, INC.,
Respondent.

CERTIFICATE OF SERVICE

I, Donald B. Verrilli, Jr., a member of the Supreme Court Bar, hereby certify
that three (3) copies of the APPLICATION TO THE HON. ELENA KAGAN FOR AN
EXTENSION OF TIME WITHIN WHICH TO FILE A PETITION FOR A WRIT OF
CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT were served on:
Corey Worcester
Renita Sharma
QUINN EMANUEL URQUHART AND
SULLIVAN LLP
51 Madison Avenue, 22nd Floor
New York, NY 10010
(212) 849-7000
coreyworcester@quinnemanuel.com
renitasharma@quinnemanuel.com

Terry L. Wit
QUINN EMANUEL URQUHART AND
SULLIVAN LLP
50 California Street, 22nd Floor
San Francisco, CA 94111
(415) 875-6600
terrywit@quinnemanuel.com

Service was made by United States Postal Service first-class mail on January
22, 2020.

Respectfully submitted,

January 22, 2020

/s/ Donald B. Verrilli, Jr.
Donald B. Verrilli, Jr.
Counsel of Record
Jonathan Meltzer
Munger, Tolles & Olson LLP
1155 F Street, NW
Seventh Floor
Washington, DC 20004
(202) 220-1100
Donald.Verrilli@mto.com

